Saptm Car d Onto Oat erf Gout • Fled

1«, am * Cam ta. W21-07S0

FiLtS-CT OF APPEALS

IN THE COURT OF APPEALS OF OHIO
FOURTH APPELLATE DISTRICT
PICKAWAY COUNTY

2021 m-2 wiu 11
Ci

D’

State of Ohio,

V. LEAK
r:'
JkTS

Case No. 99CA33

Plaintiff-Appellee,
v.

DECISION & JUDGMENT
ENTRY

David K. Horsley,
Defendant-Appellant.

Appellant, David K. Horsley, filed a “Motion for Reconsideration of his
Appeal,” which we treat as an application for reopening pursuant to App.R. 26(B).
In support of his motion, Mr. Horsley alleges his attorney failed to properly file his
appeal. Mr. Horsley requests that he be permitted to appeal the October 14,
1999 decision of the trial court denying his motion to withdraw his guilty plea.
The state has not responded to Mr. Horsely’s motion.

Because Mr. Horsley

failed to establish any genuine issue as to whether he was deprived of the
effective assistance of counsel on appeal we dismiss his application for
reopening.
A review of the online docket indicates Mr. Horsley pled guilty on May 3,
1999 in Pickaway County Common Pleas Court Case No. 1998CR184.

On

October 6, 1999, Mr. Horsley filed a notice of appeal, which he later withdrew on
November 24, 1999. As a result, this Court filed an entry dismissing his appeal
on December8,1999.
“A defendant in a criminal case may apply for reopening of the appeal

APPENDIX A

&

ij

PickawayApp. No. 99CA33

2

from the judgment of conviction and sentence, based on a claim of ineffective
assistance of appellate counsel.” App.R. 26(B)(1). “Reversal of a conviction for
ineffective assistance of counsel requires that the defendant show, first, that
counsel's performance was deficient and, second, that the deficient performance
prejudiced the defense so as to deprive the defendant of a fair trial.” State v.
Koster, 4th Dist. Ross No. 14CA25, 2017-Ohio-7499, 1f 8, citing State v.
Drummond, 111 Ohio St.3d 14, 2006-0hio-5084, 854 N.E.2d 1038, If 205.
n i

An application for reopening shall be granted if there is a genuine issue

as to whether the applicant was deprived of the effective assistance of
counsel on appeal.' ” State v. Moore, 93 Ohio St.3d 649, 650, 2001Ohio-1892, 758 N.E.2d 1130,
“bears

the

burden

quoting

App.R.

26(B)(5).

The

appellant

of establishing that there was a 'genuine issue’ as to

whether he has a ‘colorable claim' of ineffective assistance of counsel on
appeal.” Id., at 651 citing State v. Spivey, 84 Ohio St.3d at 25, 701 N.E.2d at

697.
Here, it appears trial counsel for Mr. Horsley property filed a notice of
appeal, which included a motion for the preparation of complete transcript
of proceedings at state expense, an affidavit of indigency, a statement,
praecipe, and notice to court reporter, and a docketing statement. Then, just
over one month later, an agreed entry of withdrawal of notice of appeal was
filed, which contained

Mr.

Horsley’s

counsel, and the prosecutor’s signature.

signature,

the

signature

of

his

As a result, this Court filed an

entry dismissing the appeal.

i

APPENDIX A

-•

3

Pickaway App. No. 99CA33

Consequently, because Mr. Horsley’s appellate counsel did properly file a
notice of appeal and appellant failed to establish any genuine issue as to whether
he was deprived of the effective assistance of counsel on appeal, we dismiss Mr.
Horsley’s application for reopening. APPLICATION DISMISSED.
The clerk is ORDERED to serve a copy of this order on all counsel of
record and unrepresented parties at their last known addresses by ordinary mail.
IT IS SO ORDERED.
Abele, J., and Wilkin, J.: Concur.

FOR THE COURT

Jason P. Smith
Presiding Judge

APPENDIX A

Pi!
rente (Court a

U lb

to

MS-3 mi

MPREHEicmOFmo
State of Ohio

Case No. 2021-0750

v.

ENTRY

David K. Horsley
Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of die appeal pursuant to S.CtPrac.R. 7.08(B)(4).
(Pickaway County Court of Appeals; No. 99CA33)

Maureen O’Connor
Chief Justice

APPENDIX B

The Official Case Announcement can be found at http://www.supreinecourt.ohio.gov/ROD/docs/

IN THE FOURTH DISTRICT COURT OF APPEALS, PICKAWAY COUNTY, OHIO
State of Ohio,
Plaintiff,

No.

99-CA-000033

vs.
David K. Horsley,

AGREED ENTRY

VO

cn

vo

3s-m2r
>^7^

o

£
o

Defendant.

-<^=*
oooon

r~:

o

3:
O
••

-<05^

f\>

By agreement of the parties the Notice of Appeal filed in the abovementioned case is hereby voluntarily WITHDRAWN without prejudice.

j:

X

MCHENRY,

DAVID K. "HORSLE#< DEFENDANT

DAVID LANDEFIECb,

APPENDIX C

PROSECUTOR

2>

I
< j:

IN THE COURT OF APPEALS
FOURTH APPELLATE DISTRICT

99DEC-8 AHI|:4!

STATE OF OHIO,

Plaintiff“ADDellefe^ '^
vs.

CLINE

Appeilfiet!RK OF COURTS
PICKAWAY COUNTY

DAVID K. HORSLEY,

Case No. 99 CA 33

ENTRY

Defendant-Appellant.

Upon notice of agreement by the parties for dismissal, this
appeal is hereby dismissed.

Costs to the appellant.
For the Court,

Administr

/

APPENDIX D

4-

*

IN THE COURT OF COMMON PLEAS
PICKAWAY COUNTY, OHIO
STATE OF OHIO,
Plaintiff,
Case No. 98CR184^ C7-- A

vs.

—< ~T\
oor'

O

22
m
o
o
o

3»»

Z£

32

*T>

32

CD

m

3>

O■

cr
CD

7*22
r-

DAVID HORSLEY,

id

Defendant

oo<r>

NOTICE OF APPEARANCE

-<t" rn

cn

Now comes the undersigned counsel and hereby notifies the court and opposing
counsel that she will represent Defendant, David Horsley, in the above-referenced

matter.
Respectfully submitted >

$fauJL U.
DAVID H BODIKER
Ohio Public Defender
Atty. Reg. No. 0036590

7

TRACI LEORARCK/ X
Assist
Stat&'PubligtPefercfer
AttyfReg. No.
13
Office of the Ohio Public Defender
8 East Long Street - 11th Floor
Columbus, Ohio 43215-2998
V.i*
(614) 466-5394
COUNSEL FOR DEFENDANT

APPENDIX E

3:

\

V-

.

•%

flLEO--CqMM. PLEAS
IN THE COURT OF COMMON PLEAS
PICKAWAY COUNTY, OHIO

39 NOV 15 AM 11:02

STATE OF OHIO,

SHARON K. CLINE"

SB COUnIy

Plaintiff,

C.P. Case No. 98-CR-184

vs.
DAVID K. HORSLEY,
Defendant

MOTION TO WITHDRAW AS COUNSEL AND FOR
APPOINTMENT OF NEW COUNSEL
Defendant-Appellant, David K. Horsley, hereby respectfully requests the court to
permit Tracey A. Leonard to withdraw as counsel and to appoint new counsel in the
above captioned case on appeal.
The United States Supreme Court has long held that the Constitution does not
provide for a right to appeal a state criminal conviction. McKane v. Durston (1894),
153 U.S. 684.

However, where a state has undertaken to provide a process of

appellate review, in implementing that procedure, the state must comply with due.,
process and equal protection requirements. Griffin v. Illinois (1956), 351 U.S. 12.
The Ohio Constitution does not specifically provide for a “right” to appeal.
However, Article IV, Section Three provides for the establishment of an appellate court
system with jurisdiction “in any cause on review as may be necessary to its complete
. l

determination.”
Ohio has established a statutory right to appeal. Revised Code Sec. 2505.03
states that “every final order, judgment or decree of a court. . . may be reviewed . . .
unless otherwise provided by law.” In conjunction, Rev. Code Sec. 2953.02 provides:

APPENDIX F

WiLED-COMM. FLEAS

IN THE COURT OF COMMON PLEAS, PICKAWAY COUNTY, OHIO
STATE OF OHIO
Plaintiff

99 AUG-9 AH 8= 37

Case No. 98-CR-184

SHARON K. CiJNE
"LERA OF COURTS
PICKAWAY COUNTY

ENTRY OF CONTINUANCE

vs.
David K. Horsey,
Defendant

This matter came on for hearing on this 4th day of August 1999, with Judy C. Wolford,
Assistant Prosecuting Attorney for Pickaway County being present and representing the State of
Ohio, and the Defendant being present and represented by Jerry McHenry, Esquire, Columbus,
Ohio, upon a miscellaneous hearing.
Thereupon counsel for Defendant informed fee Court that he had just been appointed as
counsel and needs additional time to research fee case, fee Court hereby continued the :
miscellaneous hearing until August 18,1999, at 11:00 a.m.
Bond is continued.

APPROVED:
JUDGE
DATE:
&LFORD (000/529)
[G ATTORNEY
pros:

APPENDIX G

Qn'X't*-i

IN THE COURT OF COMMON PLEAS
PICKAWAY COUNTY, OHIO
STATE OF OHIO,
Plaintiff,
U)

Case No. 98-CR-184

VS.

DAVID K. HORSLEY,

rn
J>Oirr

* "

:3c

oo-

OOo

Defendant

3:

35
CO
*•

-<00°"*

m
o
o
o

O

3
*o

rn

>

C5

DEFENDANTS MOTION TO DISQUALIFY THE
PICKAWAY COUNTY PROSECUTOR’S OFFICE

Now comes David K. Horsley, by and through counsel, and moves this Court to
remove the Pickaway County Prosecutor and his entire staff from any further
involvement in this case whatsoever. Mr. Horsley requests that a special, independent
prosecutor, free from any conflict of interest, be appointed to represent the interests of
the State of Ohio and Pickaway County.
The reasons for this request are more fully set forth in the attached
Memorandum in Support.
Respectfully submitted,

'ft

/
)

DAMD H. BODIKER - 0016590
QPublic Defender

V^ACEYjLECDNARD
As§t5t3nt Star^ PublipJDeferHier
Atty. Reg. No.
13

APPENDIX H

Office of the Ohio Public Defender
8 East Long Street -11th Floor
Columbus, Ohio 43215-2998
(614)466-5394
COUNSEL FOR DEFENDANT

MEMORANDUM IN SUPPORT
David K. Horsley was indicted on November 6,1998 for causing or attempting to
cause harm to a peace officer in violation of Ohio Rev. Code § 2903.13(A). Mr. Horsley
was represented in this matter by William Archer.

Mr: Archer was involved in the

change of plea and the sentencing of Mr. Horsley on June 11, 1999. Mr. Alan Sedlack
prosecuted this case for the State.

This matter is now before this Court upon Mr.

Horsley’s motion to withdraw his plea.

In his motion, Mr. Horsley alleges that Mr.

Archer’s representations during the plea process, rendered the plea involuntary and
unknowing.

The prosecuting attorney opposes the motion to withdraw the plea. The

Court has scheduled this matter for a hearing on September 8, 1999, where evidence
of Mr. Archer’s actions will be examined by the Court to determine whether the plea
may be withdrawn to correct manifest injustice.
Mr. Archer began working for the Pickaway County Prosecutor’s Office on
August 2, 1999. It is clear from the hearing held on August 25, 1999, that in opposing
the plea withdrawl, the prosecuting attorney is in the position of arguing that Mr.
Archer’s actions were appropriate with respect to his representation of Mr. Horsley.
This situation, where the Assistant Prosecuting Attorney Alan Sedlack is now defending

2

Mr. Archer’s actions as Mr. Horsley’s attorney, and Mr. Archer is now employed by the
same prosecutor’s office, presents a conflict of interest.
Various ethical consideration are implicated by the conflict of interest before the
Court. DR 5-105 provides:
(A) A lawyer shall decline proffered employment if the
exercise of his independent judgment on behalf of a client
will be or is likely to be adversely affected by the acceptance
of the proffered employment, except to the extent permitted
by DR 5-105(C).
(B) A lawyer shall not continue multiple employment if the
exercise of his independent professional judgment on behalf
of a client will be or is likely to be adversely affected by his
representation of another client, except to the extent
permitted by DR 5-105(C).
(C) In the situations covered by DR 5-105(A) & (B), a lawyer
may represent multiple clients if it is obvious that he can
adequately represent the interest of each and if each
consents to the representation after full disclosure of the
possible effect of such representation on the exercise of his
independent professional judgment on behalf of each.
(D) If a lawyer is required to decline employment or to
withdraw from employment under DR 5-105, no other
partner or associate of his or his firm may accept or continue
such employment.
DR 4-101 provides in material part:
(B) Except when permitted under DR4-104(C), a lawyer shall
not knowingly:
(1) Reveal a confidence or secret of his client.
(2) Use a confidence or secret of his client to the
disadvantage of the client.
(3) Use a confidence or secret of his client for the
advantage of himself or of a third person, unless the client
consents after full disclosure.
3

(D) A lawyer shall exercise reasonable care to prevent his
employees, associates, and others whose services are
utilized by him from disclosing or using confidences or
secrets of a client, except that a lawyer may reveal the
information allowed by DR4-101(C) through an employee.
Ethical Consideration 5-1 provides:
The professional judgment of a lawyer should be
exercised within the bounds of the law, solely for the benefit
of his client and free of compromising influences and
loyalties. Neither his personal interests, the interests of
other clients, nor the desires of third persons should be
permitted to dilute his loyalty to this client.
Ethical Consideration 5-14 provides:
Maintaining the independence of professional judgment
required of a lawyer precludes his acceptance of
continuation of employment that will adversely affect his
judgment on behalf of or dilute his loyalty to a client. This
problem arises whenever a lawyer is asked to represent two
or more clients who may have differing interests, whether
such interest be conflicting, inconsistent, diverse or
otherwise discordant.
Finally, the American Bar Association’s Standards with regard to the Prosecution
Function provide, in material part:
Standard 3-1.3 Conflicts of Interest
(a) A prosecutor should avoid the appearance or
reality of a conflict of interest with regard to official duties.
(b) A prosecutor should not represent a defendant in
criminal proceedings in a jurisdiction where he or she is also
employed as a prosecutor.
(d) A prosecutor who has formerly represented a
client in a matter in private practice should not thereafter use
information obtained from that representation to the
disadvantage of the former client unless the rules of
attorney-client confidentiality do not apply or the information
has become generally known.

4

Each of the above cited provisions are offended or compromised by allowing the
Pickaway County Prosecuting Attorney’s Office to remain on this case.
This Court, in the exercise of its judicial discretion, has the authority to order
disqualification where such action is necessary to enforce the Code of Professional
Responsibility. State ex. rel. Keenan v. Calabrese (1994), 69 Ohio St. 3d 176.

The

fact that Mr. Archer now works for the prosecutor’s office, may give the prosecutor’s
office an unfair advantage in defending Mr. Archer’s representation of Mr. Horsley. As
Justice Stratton wrote:
When an attorney leaves his or her former employment and
becomes employed by a firm representing an opposing
party, a presumption arises that the attorney takes with him
or her any confidences gained in the former relationship and
shares those confidences with the new law firm.
Kala v. Aluminum Smelting & Refining Co., Inc. (1998), 81 Ohio St. 3d 1, 5.
Whether or not Mr. Archer actually divulges confidential information is immaterial.
The situation to be avoided by disqualification is the appearance of impropriety. Where
confidential information has not been improperly transmitted, the courts have
recognized that the mere appearance of any impropriety acts as a detriment to the
integrity of the justice system, and therefore mandates disqualification,

in State v.

Boyd (Mo. Ct. App. 1977), 560 S.W. 2d 296, the defendant was represented at trial by
the public defender’s office. During the course of the preliminary proceedings in the
case, attorney Mark Bryant was a member of the public defender’s office, although not
personally assigned to Mr. Boyd’s case. Mr. Bryant left the public defender’s office,
began working as an assistant prosecuting attorney, and prosecuted Mr. Bryant’s case.
5

The Court held that “Mr. Bryant’s employment as an assistant in the Public
Defender’s Office during part of the time that such office acted as counsel for the
defendant followed by his prosecution of the defendant in the same case as Assistant
Prosecuting Attorney creates an apparent conflict of interest and appearance of
impropriety inimical to the proper administration of criminal justice.” Id. at 298.
It is the access to confidential information which raises the question of a conflict.
“It is unnecessary that the prosecuting attorney be guilty of an attempt to betray
confidence; it is enough if it places him in a position which leaves him open to such
charge.” Id. (quoting People v. Gerold (III. 1914), 107 N.E. 165, 177. The Boyd court
also relied on State v. Bums (Mo. 1959), 322 S.W.2d 736.

in that case, the

prosecuting attorney formerly represented defendant. The attorney assigned the case
to an assistant, betrayed no confidences, and in no way participated in the prosecution.
However, the conviction was still reversed: “We shall not attempt to weigh or measure
the actual prejudice in a case of this kind, and we do not consider a more specific
showing of prejudice to be necessary." Id. at 742.
A “prosecutor should avoid the appearance or reality of a conflict of interest with
respect to official duties.” ABA Standards for Criminal Justice, Section 3-1.2 (1980 2d
ed.) In the official commentary on this section, it is stated:
... when the possibility of a conflict of interest arises, the
prosecutor should recuse himself or herself ... It is of the
utmost important that the prosecutor avoid participation in a
case in circumstances where any implication of partiality
may cast a shadow over the integrity of the office.

APPENDIX H
6

Due to an equally compelling need to avoid the appearance of impropriety and conflict
of interest, and to safeguard the corresponding constitutional implications, the Pickaway
County Prosecutor’s Office should not participate in the plea withdraw! hearing.
Ohio courts have recognized the importance of maintaining the integrity of the
bar. In White Motor Corporation v. White Consolidated Industries, Inc. (January
10, 1980), Cuyahoga App. No. 956, 771, unreported, the court explained that the
“paramount concern, as expressed in the Code of Professional Responsibility, is that
public confidence must reign supreme at ail times.”

Id. at 10.

The Court then

continued, stating “that the public interest involved dictates that any doubt as to the
existence of an asserted conflict should be resolved in favor of disqualification.” Id. at
14.

To maintain public confidence in the integrity of the criminal justice system, the

prosecutor’s office must be disqualified in the present case.
In State v. Cooper (1980), 63 Ohio Misc. 1, the Court was confronted with a
situation where the accused’s counsel was appointed as an assistant prosecuting
attorney for Hancock County, Ohio. The accused objected to the continued involvement
of the prosecuting attorney’s office, as representative of the State in that prosecution.
In response, the trial court ordered that the entire prosecutor’s office be recused and
that a special prosecutor be appointed to represent the case on behalf of the
government. The Court stated in its opinion:
This Court specifically finds that there has been no
communication between Mr. Fry [the defendant’s former
defense counsel, now assistant prosecutor] and the
prosecutor or any member of his staff, but because of the
overriding requirement that the public must be able to
maintain the right to believe in the total integrity of the bar as
a whole, the motion for the Hancock County Prosecutor and
7

>J

DAVID H. BODIKER - 0016590
OhierPublic Defender
v
/

Tl
Ri
Assistant Stat&Publfe-C
Atty. Reg. No. 0564013

nder

Office of the Ohio Public Defender
8 East Long Street -11th Floor
Columbus, Ohio 43215-2998
(614) 466-5394
COUNSEL FOR DEFENDANT

CERTIFICATE OF SERVICE
I hereby certify that a true copy of the foregoing DEFENDANT’S MOTION TO
DISQUALIFY THE PICKAWAY COUNTY PROSECUTOR’S OFFICE was forwarded to
Alan Sedlack, Assistant Pickaway County Prosecutor, P.O. Box 910, 118 E. Main
Street, Circleville, Ohio 43113, this ^_aay of September, 1999.

CEY LEQNAI
AsSt

064013

ite Pub(g6 Defender

COUNSEL FOR DEFENDANT

96805

APPENDIX H
9

*

!■*

FILEO-CT. OF APPEALS
IN THE FOURTH DISTRICT COURT OF APPEALS OF OHIO
FOURTH APPELATE DISTRICT
aa
28 AH 8:41
PICKAWAY COUNTY, OHIO
JWSjV. DEAN
■
COURTS
P fCK a ;V7;Y' COUNTY
STATE OF OHIO

CASE NO. 99 CA 33

Plaintiff-Appellee,
V.
DAVID K. HORSLEY
Defendant-Appellant

ON APPEAL FROM THE PICKAWAY
COUNTY COURT OF COMMON
PLEAS
CASE NO. 98 CR184

DEFENDANT- APELLEANTS MOTION FOR RECONSIDERATION OF HIS APPEAL.

Now here comes the defendant, David K. Horsley, Pro Se, who respectfully requests
an appeal of his Withdraw of Plea that took place on October 6,1999 at 12 noon in the
Pickaway County Court of Common Pleas.
My attorney at that time, Tracey Leonard, failed to property file my appeal and as a
result my appeal was denied. Her failure acted as a waiver to my right to an appeal.
I would add that she did not submit a stay of execution of sentence on my behalf.
In such situations the United States Supreme Court has identified in text that 17-1026
Garza v. Idaho as being the court precedent that governs such actions in the last
paragraph of page 14.

APPENDIX I

Page 1 of 6

"The more administrable and workable rule, rather, is the
one compelled by our precedent When counsel’s deficient
performance forfeits an appeal that a defendant otherwise
would have taken, the defendant gets a new opportunity to
appeal.”

The Court goes on to oppose any actual statements made by the
defendant.
For one, it would be difficult and time consuming for a
postconviction court to determine—perhaps years later—
what appellate claims a defendant was contemplating at the
time of conviction.13
And notes at the bottom of page 13 of Garza explain this statement.
”13, To the extent relief would turn on what precisely a
defendant said to counsel regarding specific claims,
moreover, Garza rightly points out the serious risk of
“causing indigent defendants to forfeit their rights simply
because they did not know what words to use.” Reply Brief
17”

Garza v. Idaho quoting Roe v. Flores-Ortega, 528 U.S. 470 (2000)
begins by clearly asserting that prejudice is presumed.
“In Roe v. Flores-Ortega, 528 U. S. 470 (2000), this Court
held that when an attorney's deficient performance costs a
defendant an appeal that the defendant would have
otherwise pursued, prejudice to the defendant should be
presumed “with no further showing from the defendant of the
merits oftiis underlying claims.” Id., at 484....”
These court cases show that time stops tolling when an appeal has not
been properly filed by counsel.
The Defendant-Appellant respectfully request that his appeal be
permitted.
Page 2 of 6

As for the original charges we see that Judge P. Randal! Knece states,
at the end of the hearing on the withdraw of plea, that I as a defendant
must prove that a conflict of interest denied due process.
In the landmark United States Supreme Court case of Ward v
Monroeville, Ohio the Court shows that actual influence is not necessary
but rather that the procedure in allowing William Archer to act as an
attorney to represent a client in the same court that he was seeking a
position with the prosecutor's office denies due process.

This all stems from me showing up 2 hours late for court after being at
Archers office the day before where I specifically requested the time of
. the hearing from him.
This put Archer is a poor position. He had provided ineffective
assistance of counsel and the person was blaming him. Normally, this
would not be an issue but he was wanting the job as assistant prosecutor
and being held responsible for a client being late may have jeopardized
him obtaining that position to which he testified that he had been hired on
August 1,1999.
This position was a result of a prosecutor being terminally ill. Archer
was well aware of a position in the Pickaway County Prosecutor's Office
was coming open.

Page 3 of 6

He testified that he did not recall anything that was said at his office the
day before trial at the Withdraw of Plea hearing.
As I am a 4 year veteran of the U.S. Army who served on active duty
during the Gutf War for which I received an Honorable Discharge and
with no one opposing my claims the court must accept my version of
events.

Turney v Ohio states that,

Every procedure which would offer a possible temptation to
the average man as a judge to forget the burden of proof
required to convict the defendant, or which might lead him
not to hold the balance nice, dear, and true between the
state and the accused denies the latter due process of law.

Attorney William Archer had reason to run in with a plea bargain for me
to sign as his career hung in the balance. That is a great temptation to
forget the burden of proof required to convict a defendant and hide the
fact that he had in feet caused me to be late for court
I arrived voluntarily after learning that the court time was that morning
and did arrive at 11-11:30 A.M. on the date of the hearing which shows I
had no intention of missing that court date or otherwise I would not have
shown up at all.

Page 4 of 6

As for the original charge of Assault on a Peace officer we see that
Patrolman Baer was both victim and investigator.
This occurred right before shift change so there were 2 shifts of police
officers capable of preforming an investigation into his claims of assault.
This denies the fundamental fairness demanded by the Constitution.
His testimony, if it is to be believed, was that I was suffering a medical
emergency lying face down on the floorboards in the back of a patrol car.
He opened the door and was kicked.
2903.13 Requires intent to do serious bodily harm. How can they prove
intent when a person is suffering a medical emergency? A grown man in
the floorboards of a car would have his feet on the door as it opened.
Had this been investigated by an impartial police officer they would
have seen the problem in supporting a charge of assault as they cannot
show intent But Patrolman Baer was the sole investigator and filed
those charges anyways.
The other police officer at the scene, Patrolman Schultzhouser, did not
sign a statement to the facts of what occurred and failed to show to
testify on Patrolman Baers behalf when compelled by the court to do so.
Patrolman Baers claims are not supported by witnesses or by any video
evidence as Archer did not demand the police car videos, which would
have supported my allegations, and he had no injuries.
I am the one with injuries that support my claims of being assaulted by
Officer Baer.

Page 5 of 6

I would add thatthe Guide to Self-Representation in the4m District
Court of Appeals has been taken down.
I have included the Notice of Appeal submitted by Tracey Leonard and
a copy of that dismissal

David K. Horsley
Defendant, Pro Se
500 Engle Dr., Apt 637
McArthur, Ohio 45651

I hereby certify that a true copy of the foregoing Appellants Motion was
left with the Clerk of Courts of the Pickaway County Court of Common
Pleas, 207 S Court St, Cirdeville, OH 43113, to be placed in the
Prosecutors inbox.

David K. Horsley
Defendant Pro Se

Page 6 of 6

f,le°-comm. pleas
IN THE COURT OF COMMON PLEAS
PICKAWAY COUNTY, OHIO
STATE OF OHIO,

FILEQ--CI OF APPEAR

fSiSc an

Plaintiff,

™KAWAY COUNTY

99NOV 15 AHll:Q6

VS.

david k. horsley;
Defendant

"NOV 15 AHW01

C.P. Case No. 98-CR-184

K. CURE.
■ JERK OF COURTS
PICKAWAY COUNTY

9QCA33

NOTICE OF APPEAL
Now comes David Horsely, through counsel, and hereby appeals to the Court

of

Appeals of Pickaway County, Ohio, Fourth Appellate District from a final judgment
entered in this action on the 14th of October, 1999.
The attorney signing this notice hereby certifies that the judgment herein
appealed is final as defined in R.C. 2505.02 and Civ. R. 54(B).
Respectfully submitted,
DAVID H. BODIKER - 0016590
. Ohio PublicJDefender
/
TraceyjleBnar]
Assistant Stafe£ufe ffc Defender
Atty. Reg. No. 00640Vs
Office of the Ohio Public Defender
8 East Long Street -11th Floor
Columbus, Ohio 43215-2998
(614) 466-5394
COUNSEL FOR DEFENDANT

APPENDIX J

,

